March 2, 2021
Hon. Scott S. Harris, Clerk
Supreme Court of the United States
1 First Street, N.E.
Washington, DC 20543
RE:

Mikel Clotaire v. United States, No. 20-5908

Dear Mr. Harris:
Pursuant to this Court’s order dated March 19, 2020, petitioner in the above-captioned
case respectfully requests that the Court delay distribution of the petition for a writ of
certiorari for 7 days. The petition would currently be scheduled for distribution on
March 4, 2021. If this Court were to grant the requested 7 day extension, distribution
would be scheduled instead for March 11, 2021. The conference date, March 19, 2021,
would remain unchanged.
Petitioner requires the additional time to file its reply due to the logistical difficulties
and dislocations caused by the Covid 19 pandemic, including the need to coordinate
among multiple offices each operating remotely. The United States does not object to
the delay in distribution.

Very truly yours,
s/; Peter T. Patanzo
Counsel for Petitioner Mikel Clotaire
Cc:

Jonathan Y. Ellis, Assistant to the Solicitor General via, jonathan.ellis@usdoj.gov

